  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF MEDICAID CREDIT
    BALANCES AT NORTHRIDGE
HEALTHCARE AND REHABILITATION AS
        OF JUNE 30, 2009




                        Daniel R. Levinson
                         Inspector General

                         September 2010
                          A-06-09-00105
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

September 20, 2010



Report Number: A-06-09-00105

Mr. Eugene Gessow
Director
Department of Human Services
Division of Medical Services
P.O. Box 1437, Slot S401
Little Rock, AR 72203

Dear Mr. Gessow:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Credit Balances at Northridge
Healthcare and Rehabilitation as of June 30, 2009.” We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Paul Chesser, Audit Manager, at (501) 225-8114 or through email at
Paul.Chesser@oig.hhs.gov. Please refer to report number A-06-09-00105 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Eugene Gessow

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Arkansas, the Department of Human Services
(the State agency) administers the State’s Medicaid program.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or when the
reimbursement is for unallowable costs, resulting in an overpayment. Credit balances also may
occur when a provider receives payments for the same services from the Medicaid program and
another third-party payer. In such cases, the provider should return the existing overpayment to
the Medicaid program, which is the payer of last resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “... when an
overpayment is discovered ... the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be made
at the end of the 60 days, whether or not recovery was made.”

Although the State agency does not have any regulations requiring providers to refund Medicaid
credit balances within a specific timeframe, the Manual of Cost Reimbursement Rules for Long
Term Care Facilities contains instructions related to overpayments. Specifically, section 1-12
states that overpayments will be corrected when discovered.

Northridge Healthcare and Rehabilitation is a 224-bed nursing home located in North Little
Rock, Arkansas, that participates in the Medicaid program. It is a for-profit facility doing
business as Convacare Management, Inc. Northridge provides nursing care, therapeutic services,
and long-term care.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Northridge’s
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.

SUMMARY OF FINDING

As of June 30, 2009, Northridge’s Medicaid accounts with credit balances included
overpayments totaling $28,476 ($20,866 Federal share) that had not been returned to the
Medicaid program. Because we did not review 20 Medicaid accounts with credit balances equal
                                                i
to or less than $300, totaling $2,146, we cannot express an opinion on this amount. A
Northridge representative stated that Northridge did not promptly return the overpayments
because it believed that the State would offset the facility’s payment by the amount of the credit
balance before Northridge could reimburse the State.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Northridge the $28,476 ($20,866 Federal share) in Medicaid overpayments
       and refund the $20,866 Federal share to the Federal Government;

   •   work with Northridge to determine whether any portion of the $2,146 in remaining credit
       balances was due to Medicaid overpayments, and, if any credit balances were due to
       overpayments, collect the overpayments and refund the Federal share to the Federal
       Government; and

   •   work with Northridge to ensure that future Medicaid credit balances are reviewed and
       that overpayments are promptly returned to the Medicaid program.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency said that after a review of the credit balance
accounts, the amount of the overpayments was reduced to $27,656 and that it will seek
recoupment from Northridge for that amount. The State agency also said that it would require
Northridge to repay the $2,146 in remaining credit balances unless Northridge provides a
satisfactory explanation for the balances. Additionally, the State agency agreed to work with
Northridge to ensure that any future credit balances are routinely investigated for cause and any
Medicaid overpayments promptly recouped.

The State agency’s comments are included in their entirety as the Appendix. We have redacted
personally identifiable information from the State agency’s comments.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Federal and State Requirements...........................................................................1
              Northridge Healthcare and Rehabilitation ...........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS ...............................................................................3

          CREDIT BALANCE ACCOUNTS WITH MEDICAID OVERPAYMENTS ...............3

          RECOMMENDATIONS .................................................................................................3

          STATE AGENCY COMMENTS .................................................................................. 3

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Arkansas, The Department of Human Services (the State
agency) administers the State’s Medicaid program.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or when the
reimbursement is for unallowable costs, resulting in an overpayment. Credit balances also may
occur when a provider receives payments for the same services from the Medicaid program and
another third-party payer. In such cases, the provider should return the overpayment to the
Medicaid program, which is the payer of last resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “… when an
overpayment is discovered … the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. … [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

Although the State agency does not have any regulations requiring providers to refund Medicaid
credit balances within a specific timeframe, the Arkansas Manual of Cost Reimbursement Rules
for Long Term Care Facilities contains instructions related to overpayments. Specifically,
section 1-12 states that overpayments will be corrected when discovered.

Northridge Healthcare and Rehabilitation

Northridge Healthcare and Rehabilitation (Northridge) is a 224-bed nursing home located in
North Little Rock, Arkansas, that participates in the Medicaid program. It is a for-profit facility
doing business as Convacare Management, Inc. Northridge provides nursing care, therapeutic
services, and long-term care.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Northridge’s

                                                 1
accounting records for patient services constituted overpayments that should have been returned
to the Medicaid program pursuant to Federal and State requirements.

Scope

As of June 30, 2009, Northridge’s accounting records contained 38 Medicaid accounts with
credit balances totaling $37,532. Of the total, we reviewed the 18 accounts that had credit
balances greater than $300, totaling $35,386. We did not review 20 Medicaid accounts with
credit balances less than $300, totaling $2,146.

Our objective did not require an understanding or assessment of the complete internal control
system at Northridge. We limited our review of internal controls to obtaining an understanding
of the policies and procedures that Northridge used to review credit balances and report
overpayments to the State Medicaid program.

We performed fieldwork in August 2009 at Convacare Management, Inc., in Searcy, Arkansas.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State requirements pertaining to Medicaid credit balances and
        overpayments;

   •    reviewed Northridge’s policies and procedures for reviewing credit balances and
        reporting overpayments to the State agency;

   •    identified Northridge’s Medicaid credit balances from its accounting records as of June
        30, 2009;

   •    judgmentally selected for review 18 Medicaid accounts with credit balances that were
        outstanding as of June 30, 2009, and that had credit balances greater than $300;

   •    reviewed Northridge’s accounting records, including patient payment data, Medicaid
        claim forms and remittance advices, patient accounts receivable detail, and additional
        supporting documentation for each of the selected credit balance accounts;

   •    reviewed Medicaid claims data from the State record system;

   •    reconciled Northridge accounting records to Medicaid claims data;

   •    calculated the Federal share of overpayments based on Arkansas’ Federal medical
        assistance percentage rates, which ranged from 72.81 percent to 73.77 percent; and

   •    interviewed Northridge’s representatives and coordinated our audit with State agency
        officials.

                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                             FINDING AND RECOMMENDATIONS

As of June 30, 2009, Northridge’s Medicaid accounts with credit balances included
overpayments totaling $28,476 ($20,866 Federal share) that had not been returned to the
Medicaid program.

CREDIT BALANCE ACCOUNTS WITH MEDICAID OVERPAYMENTS

As of June 30, 2009, Northridge’s Medicaid accounts with credit balances included
overpayments totaling $28,476 ($20,866 Federal share) that had not been returned to the
Medicaid program. Of the 18 Medicaid accounts with credit balances reviewed, 15 accounts
represented overpayments that had not been returned to the Medicaid program. The credit
balances for the remaining accounts were accounting discrepancies that for 2 accounts did not
represent overpayments and for 1 account represented an underpayment. Because we did not
review 20 Medicaid accounts with credit balances equal to or less than $300, totaling $2,146, we
cannot express an opinion on this amount.

A Northridge representative stated that Northridge had not promptly returned the overpayments
because it believed that the State would offset the facility’s payment by the amount of the credit
balance before Northridge could reimburse the State.

RECOMMENDATIONS

We recommend that the State agency:

   •   recover from Northridge the $28,476 ($20,866 Federal share) in Medicaid overpayments
       and refund the $20,866 Federal share to the Federal Government;

   •   work with Northridge to determine whether any portion of the $2,146 in remaining credit
       balances was due to Medicaid overpayments, and, if any credit balances were due to
       overpayments, collect the overpayments and refund the Federal share to the Federal
       Government; and

   •   work with Northridge to ensure that future Medicaid credit balances are reviewed and
       that overpayments are promptly returned to the Medicaid program.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency said that after a review of the credit balance
accounts, the amount of the overpayments was reduced to $27,656 and that it will seek

                                                 3
recoupment from Northridge for that amount. The State agency also said that it would require
Northridge to repay the $2,146 in remaining credit balances unless Northridge provides a
satisfactory explanation for the balances. Additionally, the State agency agreed to work with
Northridge to ensure that any future credit balances are routinely investigated for cause and any
Medicaid overpayments promptly recouped.

The State agency’s comments are included in their entirety as the Appendix. We have redacted
personally identifiable information from the State agency’s comments.




                                                4
APPENDIX
                                        Page 1 of 2

App




      APPENDIX: STATE AGENCY COMMENTS
Page 2 of 2
